Inspection Report I-97-02
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
INSPECTION OF THE
CONSOLIDATED ASSET TRACKING SYSTEM
March 1997
Report Number I-97-02
TABLE OF CONTENTS
Executive Digest
Introduction
Legislative History
Program History
Office of the
Inspector General and General Accounting Office Reports
Results of the CATS Status
Review
User Satisfaction
Implementation
Delays
Information
Needs Not Met
Changing Agency
Requirements
Obtaining
Reimbursable Work Authorizations
Lack of Site
Preparation Coordination
Lack of Contractor
Security Clearances
Lack of Cooperation
Other Issues
Program Costs
Contract and Security
Issues
Contract Issues
Security Issues
Conclusion
Results of the CATS User
Survey
General Participant
Agency Information
CATS Implementation and
Installation Schedule and Coordination
CATS Data Conversion
Efforts
CATS Participant Agency
Legacy Systems
CATS Training
CATS Security
Conclusion
APPENDIX I - Scope and Methodology - NOT INCLUDED IN THIS
HYPERTEXT VERSION.
APPENDIX II - List of OIG Inspection and Audit Reports and GAO
Reports on Asset Forfeiture 1989-1995 - NOT INCLUDED IN THIS
HYPERTEXT VERSION.
APPENDIX III - User Survey - NOT INCLUDED IN THIS HYPERTEXT
VERSION.
APPENDIX IV - CATS User Survey Results: General Participant
Agency Information - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX V - CATS User Survey Results: CATS Implementation and
Installation Schedule - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX VI - CATS User Survey Results: CATS Implementation
and Installation Coordination - NOT INCLUDED IN THIS HYPERTEXT
VERSION.
APPENDIX VII - CATS User Survey Results: CATS Data Conversion
Efforts - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX VIII - CATS User Survey Results: CATS Participant
Agency Legacy Systems - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX IX - CATS User Survey Results: CATS Training - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX X - CATS User Survey Results: CATS Security - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX XI - Justice Management Division's Response to Draft
Report - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX XII - Office of the Inspector General's Analysis of
Management's Response - NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX XIII - Abbreviations - NOT INCLUDED IN THIS HYPERTEXT
VERSION.
EXECUTIVE DIGEST
The Assistant Attorney General for Administration (AAG/A)
requested that the Office of the Inspector General (OIG),
Inspections Division, review the Consolidated Asset Tracking
System (CATS) to ascertain the status of system implementation as
of January 1, 1995, when the Justice Management Division (JMD)
assumed responsibility for the program. In concert with the JMD,
Asset Forfeiture Management Staff (AFMS), we collected
information on the status of CATS implementation and found that
user dissatisfaction emerged as the most critical issue affecting
successful system implementation. We also identified other issues
including program costs, contract monitoring and system security
classification that were affecting full system implementation.
We spoke with AFMS officials, the asset forfeiture program
managers and CATS User Group representatives in the Department of
Justice (DOJ) and non-DOJ participant agencies. We briefed the
AAG/A and members of his staff on the results of our status
review in August 1995. Upon conclusion of this briefing and in
response to the request of the AAG/A, we conducted a user survey
in Fall 1995. This report summarizes the results of the initial
status review and the follow-up user survey. Based on information
obtained during our status review and our user survey, we believe
that the significant delays and continual revision of the CATS
implementation date and the ever-increasing costs of the system
are cause for serious concern and must be monitored closely.
In our view, the success of CATS is contingent upon effective
cooperation and coordination among the participant agencies. In
September 1993, the DOJ and the Department of the Treasury
(Treasury) signed a memorandum of understanding agreeing to
jointly support CATS. Nevertheless, the United States Customs
Service (USCS), decided at the onset that it would not
participate in CATS, and, in July 1995, IRS informed AFMS that it
would no longer participate in CATS. IRS justified its withdrawal
from CATS because site installation was significantly behind
schedule, CATS would not be available nationwide in the
foreseeable future, and, like USCS, IRS believed that CATS could
not provide needed financial reports.
We believe that the continual delays in system implementation,
increasing system costs, the impact of the IRS withdrawal from
CATS and the USCS' decision not to participate in the system have
been detrimental to the success of CATS. The CATS feasibility
study was completed in late 1990 and the initial projected system
completion date was December 1992 at a cost of $24 million. The
$24 million estimate did not include costs, which have increased
from an early estimate of $20.5 million to an estimate of $45
million in 1996, for the development and installation of a
telecommunications network. However, full system implementation
has not yet occurred and is now estimated for the Spring of 1997.
The estimated costs have risen to $106.2 million. In June 1996
the AFMS estimated that 50 percent of the total number of planned
CATS sites are installed and operational and 59 percent of
planned workstations are installed and operational. During our
review, we were unable to obtain a consistent, clear and
comprehensive explanation concerning the status of CATS because
implementation dates, the number of users and sites, and costs
continued to change significantly. Given this history, we
question if CATS can be fully implemented and operational by the
Spring of 1997. If the planned date for full implementation and
operation continues to change, we believe participant agencies
may reevaluate their level of participation in CATS and either
withdraw from, or curtail their use of, the system.
#####